Office of Inspector General
U.S. Department of Labor
Office of Audit




                         Audit of the
                 Montana Department of Labor
                        and Industry’s
                 Year 2000 Grant Expenditures




                                    Report Number: 04-01-010-03-315
                                    Date Issued: September 17, 2001
                                             TABLE OF CONTENTS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION AND PRINCIPAL CRITERIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

OBJECTIVE, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

RESULTS OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          GRANT FUNDS OF $114,300 PROVIDED
          FOR Y2K VALIDATION ACTIVITIES
          WERE SPENT FOR OTHER PURPOSES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          DUPLICATE CHARGES OF $15,460
          WERE MADE TO Y2K GRANT FUNDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          THE Y2K GRANT WAS OVERCHARGED $2,983 FOR
          A LOCAL OFFICE TELEPHONE SYSTEM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          MONTANA’S COMMENTS ON THE DRAFT AUDIT REPORT . . . . . . . . . . . . . . . . 8

          ANALYSIS OF MONTANA’S COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          ATTACHMENT - MONTANA’S RESPONSE TO THE DRAFT
                       AUDIT REPORT




                                                                 ii




U.S. Department of Labor - Office of Inspector General
Audit of the Montana Department of Labor and Industry’s Year 2000 Grant Expenditures




                                             ACRONYMS

BeAR             -        Benefit Automated Re-Write System
DOL              -        U.S. Department of Labor
ES               -        Employment Service
ETA              -        Employment and Training Administration
FY               -        Fiscal Year
IV & V           -        Independent Verification and Validation
MDOLI            -        Montana Department of Labor and Industry
OIG              -        Office of Inspector General
SBR              -        Supplemental Budget Request
SESA             -        State Employment Security Agency
UI               -        Unemployment Insurance
Y2K              -        Year 2000




                                                         iii


U.S. Department of Labor - Office of Inspector General
Audit of the Montana Department of Labor and Industry’s Year 2000 Grant Expenditures


                                   EXECUTIVE SUMMARY


During Fiscal Years (FYs) 1998 and 1999, Congress appropriated funds to help State
Employment Security Agencies (SESAs) make their automated Unemployment Insurance (UI)
and Employment Service (ES) systems Year 2000 (Y2K) compliant. The U.S. Department of
Labor (DOL), Employment and Training Administration (ETA), awarded the Montana
Department of Labor and Industry (MDOLI) grants totaling $6,309,069 from funds available for
Y2K readiness.

The Office of Inspector General (OIG) examined Y2K expenditures of $6,066,126 made by
MDOLI, from the grants’ inception through December 31, 2000. Our audit objective was to
determine whether Y2K funds were spent for intended purposes, in conformity with the grant
agreements and applicable Federal requirements.

We have questioned Y2K grant expenditures totaling $132,743.1 Questioned costs further
discussed in this report include:

        •        $114,300 provided specifically for contingency planning and independent
                 verification and validation (IV& V) of UI automated systems that were spent for
                 other purposes:

        •        $15,460 of duplicate charges involving a Y2K-related contractual services; and

        •         $2,983 charged to Y2K grants for a new telephone system that were in excess of
                 the actual cost.

Montana did not agree with our finding that it had misspent $114,300 of IV & V funds. Rather,
Montana believes it had the authority to use funds designated for IV & V activities for other
Y2K-related purposes. While, Montana agreed that the remaining questioned costs of $18,443
were improper; they asked that they not be required to return the funds.

We do not believe that IV & V funds should have been used for other purposes and recommend
the Assistant Secretary for Employment and Training recover $132,743 of misspent grant funds.



        1
         In response to our draft report, MDOLI provided additional documentation that adequately supported
$5,558 of expenditures the Montana Department of Revenue made from Y2K funds provided by MDOLI.
Consequently, we have reduced the costs we have questioned to $132,743.

U.S. Department of Labor - Office of Inspector General
Audit of the Montana Department of Labor and Industry’s Year 2000 Grant Expenditures




                 INTRODUCTION AND PRINCIPAL CRITERIA


                                                   In FY 1998, concerns with the approach of
 ORIGIN AND PURPOSE OF Y2K FUNDS                   Y2K and the potential for problems with
                                                   automated systems prompted Congress to
                                                   provide SESAs with grants that totaled
$205 million. The funds were to help ensure SESAs’ mission-critical automated UI and ES
systems were Y2K compliant.

ETA distributed base funding of $1 million to each of the 53 SESAs. In addition to base funding
of $53 million, ETA awarded $9,540,000 ($180,000 to each SESA) to develop business
continuity and contingency plans, in the event of Y2K-related shutdowns of critical UI and ES
systems, or for IV & V of Y2K compliance measures. During FY 1998, each SESA was also
afforded the opportunity to request additional funds for Y2K needs, through Supplemental
Budget Requests (SBRs). The SBRs detailed specific Y2K-related needs for which the funds
were requested. The SBRs were evaluated by a panel consisting of ETA staff, and the funds were
awarded based upon what the panel judged were “reasonable and allowable” costs.

In Fiscal Year 1999, ETA reprogrammed an additional $50 million of UI contingency funds to
address the SESAs’ Y2K needs. The funds were again awarded the SESAs through the SBR
process. ETA required the SESAs to demonstrate a “compelling need” for the funds to be
considered for the FY 1999 awards.

MDOLI received a total of $6,309,069 in Y2K grant funds from ETA. In FY 1998, ETA
distributed Y2K base and IV & V funds of $1,180,000 to MDOLI. In FY 1998, MDOLI
received an additional Y2K grant of $1,489,813, through the SBR mechanism. During FY 1999,
ETA awarded an additional total of $3,639,256 in Y2K and UI information technology
infrastructure funding MDOLI had requested in two SBRs.

                                          ETA Field Memorandum 50-97, dated August 4, 1997,
 PRINCIPAL CRITERIA                       provided the following guidance for the use of FY 1998 Y2K
                                          funds:

        The Y2K Compliance projects for which funds are received must focus on
        activities relating to Year 2000 conversion efforts, the replacement or upgrading
        of systems, systems interfaces, and/or software products necessary to ensure Y2K
        compliance, or replacing or upgrading computer hardware that is not Y2K


U.S. Department of Labor - Office of Inspector General
                                                                                                  2
Audit of the Montana Department of Labor and Industry’s Year 2000 Grant Expenditures

        compliant and that will adversely impact system or program performance if not
        replaced or upgraded.

Guidance on the use of FY 1999 Y2K supplemental funding was included in ETA Field
Memorandum 3-99, dated October 13, 1998:

        The Y2K funds received must be used only for activities relating to Y2K
        compliance efforts, including replacement or upgrading of systems, systems
        interfaces, and/or software products which will adversely impact system or
        program performance if not replaced or upgraded. . . .

        FY 1999 Y2K funds are intended to meet those identified immediate requirements
        of those SESAs which, in the absence of these additional funds, are unlikely to
        achieve Y2K compliance of their employment security automated systems. Thus,
        compelling need is the primary criterion which will be used in evaluating SBRs.
        Additionally, the SESA must demonstrate that the funds will materially assist the
        SESA in achieving its Y2K compliance goals.

The “Executive Summary” of ETA’s “FY 1999 SBR Review Panel Report” provided:

        These same conditions apply to the $180,000 allocated in FY 98 for IV & V reviews and
        Y2K contingency planning. If SESAs do not intend to meet the federal requirements
        associated with these activities, then the funding needs to be returned.

Also, the “Executive Summary” of ETA’s “Year 2000 SBR Review Panel’s Briefing Package”
stated that SESAs should prioritize their spending to best meet their own critical needs, and that
ETA Regional Offices should:

        . . . strongly encourage the SESAs to initially concentrate their efforts and
        resources on making UI Benefits systems compliant, as they are mission critical
        and will be the first to fail. Before funds are spent on PC upgrades and
        replacements, mission critical systems need to be converted and tested for
        compliance.




U.S. Department of Labor - Office of Inspector General
                                                                                                     3
Audit of the Montana Department of Labor and Industry’s Year 2000 Grant Expenditures



                   OBJECTIVE, SCOPE AND METHODOLOGY


The primary objective of this audit was to determine whether funds designated for Y2K
compliance were spent for intended purposes, in compliance with grant provisions and other
applicable Federal criteria.

We examined Y2K grant funds received by the MDOLI during the period October 1, 1997
through December 31, 2000. We reviewed the SBRs and quarterly financial status reports,
interviewed State officials and reviewed financial records and other documentation related to Y2K
conversion expenditures.

MDOLI received a total of $6,309,069 from ETA for Y2K compliance activities. As of
December 31, 2000, MDOLI reported having spent $6,066,126 of the funds awarded, which we
examined. MDOLI had a remaining balance of $242,943 at December 31, 2000. Because
MDOLI was still working to complete it’s Y2K compliant system, expenditures may still be
charged against the remaining balance.

Our audit was conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States and included such tests as we considered necessary to
satisfy the objective of our audit. We did not evaluate MDOLI’s general control environment over
non-Y2K funds.

Our audit was conducted for the purpose of determining if ETA’s requirements for the use of
Y2K funds had been followed. Y2K grant expenditures reported by MDOLI were the source of
transactions selected for compliance testing. However, we do not express an opinion on the
completeness or accuracy of Y2K grant expenditures reported to ETA. Our fieldwork began in
January 2001 and continued through March 2001.

Our findings, conclusions and recommendations were discussed with MDOLI and its response
was considered in preparing this report. As discussed in the following section of this report, we
have questioned $132,743 of Y2K grant expenditures that we do not believe were spent in
compliance with the Y2K grant agreements or other applicable Federal criteria.




U.S. Department of Labor - Office of Inspector General
                                                                                                    4
Audit of the Montana Department of Labor and Industry’s Year 2000 Grant Expenditures




                                       RESULTS OF AUDIT

Although MDOLI avoided interruption of ES and UI services, it did not always adhere to ETA’s
requirements governing the use of Y2K funds. We identified grant expenditures, totaling
$132,743, that were not in accordance with Y2K grant requirements. Specifically:

        •        $114,300 of IV & V funds spent on other activities;

        •        $15,460 in duplicate charges; and

        •        $2,983 of overcharges related to the purchase of a telephone system.


                                                              MDOLI improperly spent $114,300 of
                                                              Y2K grant funds provided to ensure the
 GRANT FUNDS OF $114,300 PROVIDED
                                                              integrity of mission-critical UI automated
 FOR Y2K VALIDATION ACTIVITIES
 WERE SPENT FOR OTHER PURPOSES
                                                              systems. The improper expenditures
                                                              represent nearly two-thirds of the
                                                              $180,000 in IV & V funding ETA
                                                              provided Montana.

In March of 2000, MDOLI used $114,300 of the IV & V funding to pay its primary Y2K
contractor for a portion of “retainage” earned under a contract involving work on MDOLI’s new
UI benefits system. The work was not related to IV & V activities.

MDOLI agreed that only $65,700 of the $180,000 IV & V funding was spent on legitimate
IV & V and contingency plan activities. However, the Agency believes the latitude ETA provided
on other Y2K funding received through the SBR mechanism also applied to the
IV & V funding.

Information provided us in support of MDOLI’s position does indicate ETA intended to allow
flexibility in the redistribution of Y2K funds. However, the latitude provided MDOLI involved
funds received through the FY 1999 SBRs, not IV & V funds. ETA did agree that MDOLI could
redistribute funding originally awarded for purposes identified in MDOLI’s FY 1999 SBR
solicitations. We believe the IV & V funding was intended for the specific purposes of
contingency planning and validation reviews. We disagree with MDOLI’s argument that the
funding flexibility ETA afforded in the SBRs encompassed IV & V funds.



U.S. Department of Labor - Office of Inspector General
                                                                                                       5
Audit of the Montana Department of Labor and Industry’s Year 2000 Grant Expenditures

During FY 1999, Congress approved a DOL request to reprogram $45 million from FY 1998 UI
contingency funding to Y2K activities. The additional funds were to be used for three Y2K
activities: (1) IV & V, (2) contingency planning, and (3) general Y2K renovation efforts. ETA
provided each SESA $180,000 specifically for IV & V and contingency planning. The balance
was distributed to the SESA based upon FY 1998 SBR determinations.

Unemployment Insurance Program Letter (UIPL) 38 -98 provided SESAs’ guidance on
conducting IV & V reviews:

        The SESA’s IV & V process must include reviewing the results of point-to-point
        testing, i.e., test all systems which interface with the UI system, a full clock
        advance test, and tests to check that the automated system will accurately process
        dates. . . .

        The IV&V review consists of the following major parts: (a) examination of the
        SESA’s remediation effort . . . and (b) review of the year 2000 test plans, testing
        procedures and test results, including . . . date validations. . . .

Montana’s primary Y2K solution was the complete replacement of their UI benefits system. The
old system, the Benefit Automated Re-Write System or “BeAR,” came on line in 1985 and was
not Y2K compliant. Although MDOLI expected the new UI benefits system to be on line January
1, 2000, a series of delays forced the agency to rely on the BeAR system for paying UI benefits
into 2000. MDOLI’s contingency plan called for retrofitting and “forward date testing” the
BeAR beyond January 1, 2000. Although ETA provided $180,000 specifically for IV & V
activities, MDOLI only spent $65,700 on the BeAR activities discussed.

The “Executive Summary” of ETA’s “FY 1999 SBR Review Panel Report” provides in part:

        If funding has been applied to replacement systems supporting new programs or new
        program initiatives, or to new systems or networks providing greatly expanded
        functionality, then a portion of these costs may be deemed unallowable. Agencies may be
        required to return the unallowed portion of the Y2K funding to the Federal Government.
        These same conditions apply to the $180,000 allocated in FY 1998 for
        IV & V reviews and Y2K contingency planning. If SESAs do not intend to meet the
        federal requirements associated with these activities, then the funding needs to be
        returned.

MDOLI’s use of $114,300 of its IV & V funding for the new UI benefits system was not related
to the intended purpose of the funds.



U.S. Department of Labor - Office of Inspector General
                                                                                                6
Audit of the Montana Department of Labor and Industry’s Year 2000 Grant Expenditures



                                                                  We identified a duplicate charge of
  DUPLICATE CHARGES OF $15,460                                    $15,460 that was made against Y2K
  WERE MADE TO Y2K GRANT FUNDS                                    grant funds involving a contractor’s
                                                                  work on Y2K conversion activities.

On December 9, 1998, MDOLI received a $34,503 invoice, dated November 30, 1998, from its
primary Y2K contractor. The invoice was for consulting services. On December 10, 1998, the
cost of the invoice was split. MDOLI’s FY 1997 UI automation grant was charged $21,367 and
the Y2K base grant was charged $13,136.

The $21,367 charge to the automation grant caused grant expenditures to exceed authorized
amounts by $15,460. On December 22, 1998, the FY 1997 UI automation grant’s expenditures
were reduced by $15,460 and a like amount was charged to theY2K base grant.

On March 3, 1999, an accounting entry was made transferring $29,853 of UI automation
expenditures to the IV & V grant. However, $21,367 of the $29,853 that was transferred related
to the primary Y2K contractor’s invoice.

The net effect of the transactions was an overcharge of $15,460 to the Y2K grant. The duplicate
charges resulted from expenditures of $15,460 made to the Y2K base grant, on
December 22, 1998, that were also included in expenditures of $29,853 transferred to the IV & V
grant, on March 3, 1999.

Public Law 105-78 provided that the Y2K funds could be used:

        . . . solely for the purpose of assisting States to convert their automated State
        employment security agency systems to be year 2000 compliant. . . .

ETA Field Memorandum No. 50-97 provided that Y2K funds are to be used for:

        . . . activities relating to Year 2000 conversion efforts, the replacement or
        upgrading of systems, systems interfaces, and/or software products necessary to
        ensure Y2K compliance, or replacing or upgrading computer hardware that is not
        Y2K compliant and that will adversely impact system or program performance if
        not replaced or upgraded.

MDOLI officials agreed that the $15,460 charge was duplicated. They indicated the error would
be corrected and a request would be made to apply the funds “towards a legitimate Y2K expense
which was not covered by the Y2K funding as the grant did not cover all expenses.”


U.S. Department of Labor - Office of Inspector General
                                                                                                         7
Audit of the Montana Department of Labor and Industry’s Year 2000 Grant Expenditures



                                                               MDOLI overcharged Y2K grants $2,983
 THE Y2K GRANT WAS OVERCHARGED $2,983                          for costs that relate to the purchase and
 FOR A LOCAL OFFICE TELEPHONE SYSTEM                           installation of a telephone system for a
                                                               Job Service local office.

On July 13, 1999, MDOLI charged the Y2K grant $15,356 for the purchase and installation of a
telephone system in the Sidney, Montana, Job Service office. The actual cost was $12,373,
resulting in an unsupported difference of $2,983.

Public Law 105-78 provided that the Y2K funds could be used:

        . . . solely for the purpose of assisting States to convert their automated State
        employment security agency systems to be year 2000 compliant. . . .

MDOLI officials explained that the Department had accrued $15,356 for the local office phone
system at the end of the State’s FY 1999. When the bill for $12,373 was received and paid in FY
2000, the remaining $2,983 was inadvertently miscoded to the wrong account.


CONCLUSION

ETA provided significant funds to help the MDOLI meet its Y2K requirements. Along with the
funding came specific requirements governing the use of these funds. Funds that were not spent
in accordance with the requirements should be recovered.


RECOMMENDATION

As detailed in the above findings, we recommend the Assistant Secretary for Employment and
Training recover a total of $132,743 in Y2K funds improperly charged to the Y2K grants.


MONTANA’S COMMENTS ON THE DRAFT AUDIT REPORT

MDOLI disagreed with our finding that it was inappropriate to use IV & V funds of $114,300 for
other Y2K related purposes. The response indicates:

        Montana does not concur with the audit finding on the usage of the Independent
        Verification and Validation funds. We had permission to use all Y2K funds for the


U.S. Department of Labor - Office of Inspector General
                                                                                                       8
Audit of the Montana Department of Labor and Industry’s Year 2000 Grant Expenditures



        MISTICS system, both verbally and in writing from the USDOL Regional VIII office in
        Denver. As you stated in the exit conference, this finding is in a gray area and we
        believe the expenditure of the grant funds of $114,300 should be approved. Montana has
        provided support documentation that allows flexibility in redistributing the funds.

MDOLI agreed with the finding that there were duplicate charges of $15,460 to the Y2K Grants.
However, they requested the error be used to offset other Y2K expenses. According to the
response:

        We concur with the finding that there was an accounting error that resulted in duplicate
        charges of $15,459.65 for contracted services. Since legitimate Y2K expenses exceeded
        the grant amounts, we request the ability to apply the questioned costs to pay for valid
        Y2K expenditures that were paid for out of the base funding grant.

Montana also agreed that the Y2K grant was overcharged $2,983 related to contractual services
and a local office telephone system, however, argued against return of the funds. The response
provides:

        Because of a coding error, we concur with the finding. Since legitimate Y2K expenses
        exceeded the grant amounts, we request the ability to apply the $2,983.47 in questioned
        costs to pay for valid Y2K expenditures that were paid for out of the base funding grant.


ANALYSIS OF MONTANA’S RESPONSE

We disagree with Montana’s comments concerning the use of IV & V funds for other Y2K
purposes. Generally, states were granted latitude in using Y2K funds. However, Field
Memorandum 38-98 clearly specifies appropriate IV & V activities and the 1999 SBR Review
Panel Report expresses the intent of restricting IV & V grants use to specified purposes.
Consequently, we continue to question the $114,300.

We also disagree with Montana’s argument that it be allowed to avoid return of unallowable
charges of $15,640 and $2,983 related to contractual services and the purchase of a local
telephone system, respectively.

Consequently, we continue to recommend the Assistant Secretary for Employment and Training
recover $132,743 of unallowable grant expenditures and return the funds to the U.S. Treasury.




U.S. Department of Labor - Office of Inspector General
                                                                                                    9
                                                                                  ATTACHMENT


      MONTANA’S RESPONSE TO THE DRAFT AUDIT REPORT




Montana’s response to the draft audit report is presented in its entirety following this page.
